OIG Investigative Reports, Former Federal Computer Security Specialist Pleads Guilty to Hacking Department of Education Computer
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. DEPARTMENT OF JUSTICE
FOR IMMEDIATE RELEASE
WEDNESDAY, MARCH 1, 2006  www.usdoj.gov
CRM
(202) 514-2007
TDD (202) 514-1888
PRESS RELEASE
Former Federal Computer Security Specialist Pleads Guilty
to Hacking Department of Education Computer
WASHINGTON, DC – Kenneth Kwak, 34, of Chantilly, Va., pleaded
guilty today in the District of Columbia federal court before U.S. District
Judge Royce Lamberth to a one-count information charging him with unauthorized
access to a protected computer in furtherance of a criminal or tortious act,
Assistant Attorney General Alice S. Fisher of the Criminal Division and U.S.
Attorney Kenneth L. Wainstein for the District of Columbia announced today.
According to a statement of facts filed with the guilty plea, Kwak was a system
auditor working on federal information security management audits as a member
of the Department of Education's Office of Inspector General. Kwak placed software
on his supervisor's computer which enabled him to access the computer's storage
at will. He later used that access on numerous occasions to view his supervisor's
e-mail and Internet activity as well as other communications, and to share those
communications with others in his office. Kwak carried out his crime and invaded
his supervisor's privacy for personal entertainment; there is no indication
he profited financially from his actions.
"This case is an example of our zero-tolerance approach to public corruption
and computer hacking, and highlights the excellent working relationship between
our office and the Computer Crime and Intellectual Property Section of the Criminal
Division," said U.S. Attorney Wainstein.
Kwak faces a maximum penalty of five years in prison and a fine of $250,000
for the crimes to which he pleaded guilty. A sentencing date has been set for
May 12, 2006.
The matter was investigated by the Computer Crime Investigations Division of
the Department of Education's Inspector General’s Office. The case was prosecuted
by Senior Counsel William Yurek (cross-designated as a Special Assistant U.S.
Attorney in the D.C. U.S. Attorney’s Office), along with assistance by Trial
Attorney Howard Cox, both of the Computer Crime and Intellectual Property Section
in the DOJ Criminal Division. The prosecution was part of the "zero-tolerance
policy" recently adopted by the U.S. Attorney’s office regarding intrusions
into U.S. government computer systems.
06-106
Top
Printable view
Share this page
Last Modified: 03/07/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov